Pension Benefit Guaranty Corporation
     Office of Inspector General
         Evaluation Report




   PBGC’s Plan Asset Audit of
   National Steel Pension Plans
     Was Seriously Flawed




           March 30, 2011
                             OIG Eval-2011-10/PA-09-66-1
Executive Summary

Serious errors and omissions plagued PBGC’s efforts to determine the fair market value of plan
assets for seven terminated National Steel pension plans. Plan asset audits are intended to verify
the value of pension plan assets as of the date of plan termination; this value is important because
it can affect the level of benefits to be paid to beneficiaries. For National Steel, a single plan
asset audit report was accepted by PBGC in 2004 to establish the asset allocations for seven
different pension plans. However, the plan asset audit for the National Steel plans failed to meet
applicable professional standards. This occurred because PBGC and its contractor did not
exercise due professional care in the conduct of the audit. Further, PBGC did not provide
effective oversight for the contractor and accepted and paid for sub-standard and obviously
flawed audit work. As a result, neither PBGC nor the plan beneficiaries has reasonable
assurance that plan assets have been identified, correctly valued, and allocated to the individual
National Steel pension plans.

The value of a plan’s assets is important because it is used in calculating retirement benefits. For
some plans, increases in the calculated value of plan assets at the date of plan termination result
in increased benefits for plan participants. However, for other plans – especially plans such as
National Steel in which plan funding falls far short of the calculated guaranteed benefit amount –
even relatively large increases in the value of plan assets may not translate into additional
benefits for retirees.

  Users of this report are cautioned against assuming that OIG’s finding and recommendations
 will result in benefit increases. Because PBGC and its contractors did not perform or document
  many of the steps necessary to fully validate the value of plan assets, significant further work
      will be needed for PBGC to determine conclusively whether correction of the errors and
 omissions OIG identified will result in increased benefits for any National Steel retirees. PBGC
 has contracted with a Certified Public Accounting (CPA) firm for a detailed reassessment of the
               value of National Steel’s plans assets; this work is currently underway.


PBGC’S Plan Asset Audit Was Seriously Flawed

PBGC paid for a plan asset audit that contained obvious and material errors and omissions in the
audit report and in the supporting work papers. Further, many of the required audit procedures
were either not performed or not documented. Neither PBGC nor its contract auditor exercised
due professional care in the conduct of the audit. Finally, the audit work failed to meet
Government Auditing Standards and, as a result, did not provide reasonable assurance about the
fair market value of plan assets at the date of plan termination.

Many errors in the plan asset audit were obvious and would have been identified if the report had
been subjected to even a cursory oversight review. For example, the audit report showed net
assets were $1,436,523,271.58. Three lines later, on the same page, the report’s conclusion
section showed a different amount, reporting net plan assets of $1,438,375.127.95. Further, the
supporting work paper shows yet a third number -- $1,400,302,878.58 -- as net assets. The $38

                                                                                                   1
OIG Eval‐2011‐10/PA‐09‐66‐1
million difference between net assets as documented in the audit work paper and as reported in
the conclusion section of the report is material. Neither the report nor the work papers explained
the reasons for the differences in this key number.

Some errors in the plan asset audit report could be identified by comparing what was reported
with supporting or corroborating evidence. For example, the audit report states “There were no
insurance contracts in the plan.” Our review of the Forms 5500 submitted by National Steel
showed that the plans held four insurance contracts valued at over $56 million. The audit report
also states “No annuities were purchased for participants under the plan.” Nevertheless our
review of the Forms 5500 submitted by National Steel showed that at least three annuity
contracts were purchased for 229 beneficiaries for three of the family of plans.

PBGC’s Plan Asset Audit Did Not Comply with Government Auditing Standards

PBGC and its contract auditors asserted in the National Steel plan asset audit report that the audit
was conducted in accordance with Generally Accepted Government Auditing Standards.
PBGC’s contract with the Integrated Management Resources Group, Inc. (IMRG) required that
“work products are consistent with Government Auditing Standards…” However, the
performance of the plan asset audit suffered from multiple and serious deviations from
Government Auditing Standards. Government auditing standards, established by the
Comptroller General of the United States, are the professional standards for government auditing
that provide a framework for performing high-quality audit work with competence, integrity,
objectivity, and independence.

Based on our work, we concluded that PBGC leadership did not have a strong commitment to
ensuring that audit work was completed in accordance with Government Auditing Standards.
Instead, as noted by the Benefits Administration and Payment Department (BAPD) director,
assertions about compliance with Government Auditing Standards were considered to be
boilerplate and not necessarily relevant to the conduct of the plan asset audits.

PBGC’s Oversight of the Contractor was Inadequate

PBGC’s oversight of the contract auditors was ineffective in identifying obvious and material
errors and omissions in the work IMRG performed on the National Steel plan asset audit.
According to the contract, PBGC was to conduct audits of the IMRG’s services under the
contract, “to obtain reasonable assurance that PBGC policies are being followed and internal
controls are in place and are functioning.” PBGC personnel responsible for monitoring IMRG’s
performance included the Contracting Officer’s Technical Representative (COTR) and personnel
within the assigned Trusteeship Processing Division (TPD). 1

Although there was no corroborating evidence that PBGC personnel reviewed any of IMRG’s
work, both the PBGC manager and the PBGC auditor assigned to manage and provide oversight
for the National Steel audit signed IMRG’s plan asset audit report concurring with the results,
1
  TPDs are divisions, within BAPD, with primary responsibility for activities related to terminated pension plans
that PBGC trustees. BAPD currently has eight (8) TPDs. TPD 1 was responsible for the completion of the National
Steel plan asset audit.

                                                                                                                2
OIG Eval‐2011‐10/PA‐09‐66‐1
supporting work papers, and attachments. Neither the PBGC manager nor the PBGC auditor
commented on the inadequacies of the contract auditors’ work or on the extensive
noncompliance with Government Auditing Standards.

PBGC placed tremendous reliance on its contractor and is now experiencing serious and costly
problems with the quality and utility of the contract deliverables for which it paid. Many of
these issues could have been avoided through effective contract management, including careful
contract monitoring, acceptance of deliverables and evaluation of contractor performance. To its
credit, after we advised PBGC leadership of the serious issues included in this report, PBGC
committed to taking actions to re-evaluate National Steel’s plan assets and to improve the
effectiveness of its plan asset valuation process.

PBGC has advised that asset values are generally validated by another division of the
Corporation after the completion of the plan asset audit. Based on our review of financial
records held by the Corporation, the additional independent validation of asset values did not
occur for many of the assets of the National Steel plans. Thus, because PBGC did not perform a
full validation of asset values and relied on the incorrect and unsupported values provided in the
plan asset audit, substantial additional effort will be needed to ensure the integrity of asset
allocations to the National Steel pension plans.

PBGC’s decision to contract with a CPA firm to re-evaluate the value of plan assets is a positive
one. Our recommendations are intended to support that decision and help ensure the
effectiveness of PBGC’s ongoing effort to calculate a more reliable valuation for plan assets.
However, given that the original report was accepted by PBGC in 2004, it is important to note
that the work that PBGC is currently doing will not provide the same level of assurance that a
properly performed audit, conducted in accordance with Government Auditing Standards, would
have provided. The passage of time will prevent PBGC and its new contract auditor from being
able to complete many of the audit tests related to the detection of fraud, waste, or abuse.
Further, in some instances, outside parties may not have maintained the corroborating records
that could be used to assist in the valuation of plan assets. For example, we contacted the firm
providing annuities to 229 plan beneficiaries who advised that nearly all of the relevant records
have been destroyed.

Our report includes specific recommendations for review coverage to be included in the ongoing
re-evaluation of National Steel plan assets. Further, we are making a number of
recommendations aimed at reducing the likelihood that future audit products prepared by PBGC
or by its contract auditors will suffer from the errors and omissions identified in this report.
Users of this report should be aware that the report does not include every instance of error or
every possible indicator of risk that was identified during our review. Rather, we have reported
the primary types of errors and omissions with the objective of ensuring improvement in future
PBGC audits of plan assets and to aid in PBGC’s ongoing re-evaluation of National Steel plan
assets.

In its March 29, 2011, written response to the official draft report, PBGC expressed agreement
with our finding and recommendations. Additionally, PBGC included general comments
explaining how the amount of assets in a terminated pension plan may affect the benefits of plan

                                                                                                 3
OIG Eval‐2011‐10/PA‐09‐66‐1
participants. The Corporation noted that, for most people, the amount of plan assets received by
PBGC has no effect on the benefits they receive from PBGC 2 . We have incorporated the PBGC
response after each recommendation, along with our comments in the OIG Position section.
PBGC’s response to the official draft is included in its entirety as Appendix C to this report.

We concur with PBGC’s proposed corrective actions and have accepted management decision
for each of the report’s twelve recommendations.




2
    We have not validated and are not expressing an opinion on this assertion.

                                                                                               4
OIG Eval‐2011‐10/PA‐09‐66‐1
Table of Contents
                                                                           Page

Executive Summary                                                          1

Background and Objectives                                                  6

Finding and Recommendations                                                10

      I. PBGC’s Plan Asset Audit Was Seriously Flawed                      10

      II. PBGC’s Plan Asset Audit Did Not Comply with Government
          Auditing Standards                                               15

      III. PBGC’s Oversight of the Contractor was Inadequate               19

      IV. PBGC Personnel Ultimately Responsible for Shoddy Contract Work   21

      V. Corrective Actions Initiated During OIG’s Review                  22

      Recommended Actions                                                  23


APPENDIX A - Scope and Methodology

APPENDIX B - Plan Assets, Liabilities, and Net Asset Value

APPENDIX C - PBGC Response




                                                                                  5
OIG Eval‐2011‐10/PA‐09‐66‐1
Background and Objectives

Background

The Pension Benefit Guaranty Corporation (PBGC) protects the retirement incomes of nearly 44
million American workers in more than 27,500 private-sector defined benefit pension plans.
PBGC was created by the Employee Retirement Income Security Act (ERISA) of 1974 to
encourage the continuation and maintenance of private-sector defined benefit pension plans,
provide timely and uninterrupted payment of pension benefits, and keep pension insurance
premiums at a minimum. Defined benefit pension plans promise to pay a specified monthly
benefit at retirement, commonly based on salary and years on the job.

If a pension plan terminates without sufficient assets to pay all promised benefits, PBGC steps in
and becomes trustee. At the time of termination, activities under a pension plan such as benefit
accruals and vesting cease. In addition to the terminated plan’s assets, PBGC uses its own assets
to pay benefits to insure that participants do not lose all their benefits.

Basic pension benefits a participant has earned are guaranteed by PBGC– such as pension
benefits at normal retirement age, and disability benefits – up to a monthly limit that is set by
law. Generally, the limit is permanently established for each pension plan based on the plan's
termination date. For some participants, however, the benefits the employer has promised are
greater than the legal limits PBGC can pay.

Minnesota Steelworkers and Miners

The Office of Inspector General (OIG) received a request from U. S. Senators Amy Klobuchar
and Al Franken, and U.S. Congressman James Oberstar to review and examine the work of the
PBGC regarding Minnesota steelworker pension plans. Beginning in 2002, when PBGC
terminated and trusteed several Minnesota steelworker pension plans, the pension benefits of
thousands of plan participants were reduced. While there were unique circumstances regarding
each plan termination, the Minnesota congressional members were concerned about the
perceived disparities between pension plan benefits for these steelworkers. This report is the first
in a series of reports we plan to issue to address the concerns of the Minnesota congressional
delegation and their constituents. One of the areas the delegation requested the OIG review
concerned whether PBGC consistently applied ERISA, as well as its own regulations and
policies, when terminating and calculating the benefits related to Minnesota steelworker pension
plans. In an effort to address this area of concern, the OIG reviewed selected aspects of PBGC’s
benefit termination process. This report focuses on PBGC’s process to value the assets of the
National Steel Corporation 3 family of seven terminated pension plans.


3
  To adequately address the Minnesota congressional delegations concerns, we decided to focus our evaluation on
the terminated steel plans that impacted Minnesota steelworkers and miners, namely the National Steel Corporation
and the LTV Steel Company, Inc. Because certain aspects of the termination of the Thunderbird Mining Company’s
pension plan were in litigation during our review, we did not include this plan (Thunderbird Mining is a subsidiary
of the EVTAC Mining Company) within our scope. Selected aspects of the LTV termination will be addressed in a
future report.

                                                                                                                  6
OIG Eval‐2011‐10/PA‐09‐66‐1
National Steel Corporation

The National Steel Corporation (National Steel) was one of the largest integrated steel producers
in the United States that engaged in the manufacture and sale of a wide variety of flat rolled
carbon steel products sold primarily to the automotive, construction, and container markets.
National Steel was formed in 1929 through the merger of Great Lakes Steel Corporation,
Weirton Steel Corporation and Hanna Iron Ore Company. It purchased Granite Steel
Corporation in 1971. Headquartered in Mishawaka, Indiana, National Steel and 41 of its
subsidiaries filed for relief under Chapter 11 of the United States Bankruptcy code on March 6,
2002. On May 20, 2003, National Steel sold substantially all of its assets for steel making and
finishing and its iron ore pellet operations to United Steel Corporation. National Steel
maintained eight defined benefit plans; seven of those plans were terminated on December 6,
2002 and trusteed by PBGC on May 31, 2003.  The pension plan for the hourly employees of the
American Steel Corporation (the eighth plan) was not trusteed by PBGC; instead, it was
terminated as a standard termination since the plan was funded well enough to pay all benefits
owed to participants and beneficiaries. The seven National Steel plans trusteed by PBGC are
depicted in the table below.


                    Pension Plan                             Number of             Total Liability for        Total Plan Assets
                                                            Participants/              Benefits 1              per Plan Asset
                                                            Beneficiaries 1                                        Audit 2
Granite City Pension Plan for Chemical Workers                       1,360                $161,396,301              $67,603,081
Weirton Retirement Plan                                             11,962                $505,186,871             $321,363,157
National Steel Corporation Retirement Plan                           5,728                $667,007,979             $310,340,803
National Steel Corporation Pension Plan Hourly                      10,404               $1,101,896,167            $494,155,641
Employees 3
Granite City United Steelworkers of America                             3,830              $382,926,459             $178,567,462
Pension Plan
Pension Plan for Salaried Employees of National                           225               $29,374,742             4
                                                                                                                         $15,825,012
Steel Pellet
National Steel Pellet Company Pension Plan for                          1,643              $106,558,608              4
                                                                                                                        $50,519,972
Wage Employees

Table 1: National Steel Corporation pension plans trusteed by PBGC 
1
    Data from PBGC’s Case Management System, the computerized system for tracking events and inquiries affecting pension    
plans. 
2
    Data from Plan Asset Audit prepared by IMRG, dated July 14, 2003. 
3
    This plan was mislabeled as “Great Lakes Hourly Pension Plan” in the plan asset audit report. 
4
    The total asset values were incorrectly switched for the National Steel Pellet salaried and hourly pension plans in PBGC’s plan 
asset audit.  For purposes of this chart, we reversed the error. 

We did not audit the above data derived from the Case Management System and provide no
assurance of its accuracy.




                                                                                                                                  7
OIG Eval‐2011‐10/PA‐09‐66‐1
Plan Asset Audit

When PBGC becomes the trustee of a terminated pension plan, it must determine the value of the
plan’s assets. This is necessary to determine if the plan’s assets are sufficient to provide plan
participants more than their guaranteed benefit. In some cases, the value of plan assets may
exceed the amount needed for guaranteed benefits, allowing plan participants to receive a higher
benefit amount. In other cases, the value of the plan assets may be less than the value of
guaranteed benefits; in these cases, PBGC pays the guaranteed amount to plan participants.
PBGC’s process for identifying and determining the value of a pension plan’s assets is called a
plan asset audit.

The purpose of a plan asset audit is to determine the fair market value 4 of the plan’s net assets as
of the date of the plan termination. To accomplish this task, the audit team should ensure that all
plan assets and liabilities have been identified and valued as of the date of plan termination, and
take steps to ensure that significant instances of fraud, fiduciary breach, and party-in-interest
transactions have been considered. An accurate assessment of the plan’s net assets is critical to
determining the amount of benefits that can be paid to plan participants.
Accurately valuing a terminated pension plan’s assets is one of the most important and
fundamental aspects of PBGC’s post-trusteeship process and carelessness in this area exposes
PBGC to a variety of risks, including, but not limited to:

     •   Incorrect value of plan assets;
     •   Failure to identify all plan assets;
     •   Incorrect value of plan liabilities;
     •   Insufficient documentation to support valuation;
     •   Incorrect benefit payments;
     •   Increased exposure to PBGC’s insurance program;
     •   Increased benefit processing time; and
     •   Litigation against PBGC.
Additional plan assets, if any, that exist but are not identified as part of the plan asset audit, are
not available to PBGC to pay future benefits and unnecessarily increase PBGC’s deficit position.

Master Trust. A company that sponsors more than one employee benefit plan may place assets
relating to some or all of the plans into one combined trust account, sometimes referred to as a
master trust. Each plan has an interest in the assets of the trust, and ownership is represented by
a record of proportionate dollar interest or by units of participation. A bank ordinarily serves as
the trustee for a master trust and acts as custodian. As part of its custodial duties, the bank issues
custodian statements (i.e., bank statements). Custodian statements list the assets held in common

4
  Fair market value is the price at which property would change hands between a willing buyer and a willing seller,
neither being under any compulsion to buy or to sell, and both having reasonable knowledge of relevant facts (29
CFR 4001.2).



                                                                                                                      8
OIG Eval‐2011‐10/PA‐09‐66‐1
by the plans and their values as of the date of the statement. Typically, assets are categorized by
type. Appendix B includes detailed information about the various types of plan assets and
liabilities, as well as the computation of net asset value.

Most of the assets for the family of terminated National Steel pension plans were commingled
into the National Steel Corporation Master Retirement Trust, although some were held outside
the trust. National Steel appointed Mellon Bank (now BNY Mellon) as the trustee for this master
trust. This was a directed trust, meaning the trustee acted as custodian of the plans’ investments
and was responsible for collecting investment income. The trustee was also responsible for
implementing trust asset transactions as directed by the party named as having discretion to make
investment decisions, such as the plan administrator, the plan’s investment committee, or the
plan’s investment advisor.

Annually, on the federal Form 5500 Annual Return/Report of Employee Benefit Plan submitted
by National Steel, the plan administrator reported the dollar value interest in the master trust.
Additionally, each plans’ annual financial statement audit included the dollar value of interest
and each plan’s year-end percentage share of the master trust.

Contract Audit Team. During the time the National Steel pension plans were terminated,
PBGC had an on-going labor hour contract with Integrated Management Resources Group, Inc.
(IMRG) to conduct audits related to terminated pension plans. PBGC has a long-standing and
close relationship with IMRG. While PBGC did not retain records to allow us to determine how
many audits IMRG had completed, the contractor reported as an “immense accomplishment” the
completion of 430 plan asset audits, 350 participant data audits, 100 plan document audits, and
225 source document audits over a period of years. Further, the contractor reported that PBGC
has hired more than twenty-five of IMRG’s staff. Prior OIG audit work addressed issues with
the qualifications of staff provided by IMRG and with PBGC’s oversight of the audit services
contract.

During 2003 and 2004, IMRG staff conducted the plan asset audit 5 for the seven terminated
National Steel defined benefit plans. The report was accepted by PBGC in April 2004 and was
signed by five IMRG auditors, as well as an IMRG project manager and an IMRG audit
supervisor.

We were unable to determine the cost of the National Steel plan asset audit, in part because
PBGC issued task orders to IMRG but did not retain copies. The total cost of the IRMG audit
services contract, under which this plan asset audit was performed, was more than $26 million;
the contract’s performance period was October 2002 to September 2008.

Objectives
Our overall objective was to evaluate PBGC’s actions in terminating and establishing benefits
for the Minnesota Steelworker pension plans. For this report, our specific objectives were to
determine (1) whether the National Steel plan asset audit met applicable professional standards;

5
 Since the vast majority of the assets for these seven plans were commingled in a single Master Trust, only one plan
asset audit was conducted to cover the valuation of the assets for all seven plans.

                                                                                                                  9
OIG Eval‐2011‐10/PA‐09‐66‐1
(2) whether the audit was conducted in accordance with contractual terms and PBGC’s
established protocols; and (3) the effectiveness of PBGC’s oversight and quality control
processes for the plan asset audit.

Fieldwork for this evaluation was performed from August 2009 through January 2011. The
evaluation was conducted in accordance with the Quality Standards for Inspections established
by the Council of the Inspectors General on Integrity and Efficiency, as well as applicable OIG
policies and procedures. These standards require that we plan and perform the evaluation to
obtain sufficient, competent, and relevant evidence to provide a reasonable basis for our
conclusions based on our evaluation objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our evaluation objectives.

Finding and Recommendations

Serious errors and omissions plagued PBGC’s efforts to determine the fair market value of plan
assets for seven terminated National Steel pension plans and PBGC’s plan asset audit failed to
meet applicable professional standards. This occurred because PBGC and its contractor did not
exercise due professional care in the conduct of the audit. Further, PBGC did not provide
effective oversight for the contractor and accepted and paid for sub-standard and obviously
flawed audit work. As a result, neither PBGC nor the plan beneficiaries has reasonable
assurance that plan assets have been identified and correctly valued and allocated to the
individual pension plans.

Users of this report are cautioned against assuming that OIG’s findings and recommendations
will result in benefit increases. Because PBGC and its contract auditors did not perform or
document many of the steps necessary to fully validate the value of plan assets, significant
further work will be needed for PBGC to determine conclusively whether correction of the errors
and omissions OIG identified will result in increased benefit levels for any National Steel
retirees. PBGC has contracted with a Certified Public Accounting (CPA) firm for a detailed re-
evaluation of the value of National Steel’s plan assets; this work is currently ongoing. Further,
the Corporation has committed to correcting its errors, if any, and revising monthly benefit
amounts as appropriate.

  I.      PBGC’s Plan Asset Audit Was Seriously Flawed

PBGC paid for a plan asset audit that contained obvious and material errors and omissions in the
audit report and in the supporting work papers. Further, many of the required audit procedures
were either not performed or not documented. Neither PBGC nor the contract auditors tested or
did work to validate the percentages used to allocate commingled assets and liabilities among the
seven pension plans; this failing was significant, as variations as small as a single percentage
point could have had a material effect on the funding status of the smallest of the National Steel
pension plans. Finally, the audit work supporting the plan asset audit failed to meet Government
Auditing Standards and did not provide reasonable assurance about the fair market value of plan
assets at the date of plan termination.


                                                                                               10
OIG Eval‐2011‐10/PA‐09‐66‐1
PBGC and its contract auditors made obvious errors. Many errors in the plan asset audit
could have been easily identified if the report had been subjected to even a cursory oversight
review. For example, the audit report showed net assets were $1,436,523,271.58. Three lines
later, on the same page, the report’s conclusion section showed a different amount, reporting net
plan assets of $1,438,375.127.95. Further, the supporting work paper shows yet a third number -
$1,400,302,878.58 - as net assets. The $38 million difference between net assets as documented
in the audit work paper and as reported in the conclusion section of the report is material – more
than twice the value of assets allocated to the smallest of the plans. Neither the report nor the
work papers explained the reasons for the differences in this key number.

As another example, the dollar values of allocated assets for the National Steel Pellet Salaried
Plan 6 and the National Steel Pellet Hourly Plan 7 were incorrectly reversed in the National Steel
plan asset audit report. This error should have been obvious to the auditors, as the Pellet Salaried
Plan would have been funded at 161% based on the plan asset audit report and, if funded at that
level, should not have been terminated by PBGC. Nevertheless, the PBGC auditor and PBGC
manager who reviewed and concurred in the report did not identify the mistake. Prior to the time
of our review, PBGC had noted this particular error and made necessary corrections in the
Corporation’s records. However, identification of this obvious error did not lead PBGC
managers to review or re-assess the overall quality of the National Steel plan asset audit.

Some errors in the plan asset audit report could have been identified by comparing what was
reported with supporting or corroborating evidence. For example, the audit report states “There
were no insurance contracts in the plan.” Our review of the Forms 5500 submitted by National
Steel showed that the plans held four insurance contracts valued at over $56 million.

The audit report also states “No annuities were purchased for participants under the plan.”
Nevertheless our review of the Forms 5500 submitted by National Steel showed that at least
three annuity contracts were purchased for 229 beneficiaries for three of the family of plans.

Other errors were less obvious, but should have been identified and corrected if the audit work
had been conducted in accordance with Government Auditing Standards. For example, PBGC
and its contract auditors made substantial mistakes in the allocation of assets between the various
pension plans.

      •   The allocation methodology used by PBGC and its contract auditors incorrectly gave
          credit for the value of assets held by the American Steel Corporation, a pension plan that
          was terminated under a standard termination agreement, to the seven trusteed pension
          plans. 

      •   Although the National Steel Pellet Hourly pension plan owned a piece of real estate
          outside of the commingled master trust, the methodology used by PBGC and its contract
          auditors incorrectly allocated the value of the real estate across all seven trusteed
          National Steel plans. That is, the National Steel Pellet Hourly plan was credited with

6
    Pension Plan for Salaried Employees of National Steel Pellet.
7
    National Steel Pellet Company Pension Plan for Wage Employees.

                                                                                                  11
OIG Eval‐2011‐10/PA‐09‐66‐1
        only a small proportion of the value of the real estate that it owned. While the actual
        dollar impact of this error was small, the incorrect handling of the National Steel Pellet
        Hourly plan’s asset demonstrates the lack of care shown by PBGC and its contract
        auditors in allocating assets to the various plans. 
Simple tests for the reasonableness of data would have disclosed some errors. For example the
plan asset audit calculated slightly less than $3.1 million of accrued interest on fixed assets of
approximately $384.9 million, or about .8% -- an interest rate that seems low. Auditor
investigation after this simple test would have revealed that PBGC and its contract auditors had
failed to accrue interest on $289 million of the fixed assets.

Although National Steel pension plans held six major fixed income accounts, PBGC and its
contract auditor calculated accrued interest for only two of the accounts comprising about 25%
of the total fixed income portfolio. As a result, none of the seven National Steel plans received
credit for interest income earned on four of the six fixed income accounts. Our review relating to
these four accounts disclosed that interest income had been received and other interest income
was receivable at the date of plan termination. Nevertheless, these amounts were not calculated
or allocated to the National Steel pension plans. As a result, asset values for each of the plans
were understated.

Further, neither PBGC nor its contract auditors calculated accrued interest relating to cash and
cash equivalents, including repurchase agreements and short term deposits and investments that
produced interest income. Although statements produced by the custodian bank reflected both
interest received and interest receivable relating to these accounts, the interest was not calculated
or allocated to the National Steel pension plans, resulting in additional understatement of the
plans’ asset values. PBGC records do not contain information to allow us to estimate the amount
of the understatement, but interest on more than $387 million ($289 million in fixed income and
$98 million in cash and cash equivalents) could be material, given the small size of some of the
National Steel plans.

According to Generally Accepted Government Auditing Standards (GAGAS), 8 accuracy in audit
reports requires that the evidence presented be true and that findings be correctly portrayed. The
need for accuracy is based on the need to assure readers that what is reported is credible and
reliable. One inaccuracy in a report can cast doubt on the validity of an entire report and can
divert attention from the substance of the report. In addition, inaccurate reports can damage the
credibility of the issuing organization.

PBGC and its Contract Auditors failed to perform many of the required audit steps.
Although the plan asset audit report asserted that the audit was conducted in accordance with
GAGAS and the IOD Procedures Manual, our review found no evidence that certain key audit
steps had been completed. Many of the omitted steps were steps that would have been useful in


8
  Unless otherwise noted, references to Government Auditing Standards in this report are from the June 1994
version of the standards which were effective during the time of the performance of the National Steel plan asset
audit. The terms Government Auditing Standards and Generally Accepted Government Auditing Standards are used
interchangeably in this report.


                                                                                                              12
OIG Eval‐2011‐10/PA‐09‐66‐1
ensuring that all assets had been identified and in disclosing potential fraud, waste, or abuse.
Examples of required audit procedures that were not performed include:

   •   Independent validation of the custodian’s valuation for “hard-to-value” and “non-
       traditional assets.” PBGC and its contract auditors did not consult with experts about
       how to value these complex investments, as required by PBGC policy. Instead, the
       auditors simply accepted the valued assigned by the custodian and performed no further
       testing. For example, the auditors’ work did not provide any assurance about the fair
       market value of venture capital assets valued by the custodian at about $15 million.  
        
   •   Verification of transfers and unusual transactions. Despite the audit report assertion that
       PBGC and its contract auditors have reviewed “financial statements for traces of unusual
       transfers and transactions,” we found no supporting evidence that the auditors had
       verified the legitimacy of transfers from the pension plans. PBGC policy required the
       auditor to contact banks and insurance companies to obtain statements for one year prior
       to DOPT and one year subsequent to DOPT, with the purpose of verifying that all
       transfers are legitimate. Examples of transfers that should have been analyzed include: 


           o A $64 million “transfer out” from the National Steel Master Trust Account as
             reflected in the November 30, 2002 custodian bank statement; 
              
           o Over $192 million transferred from the National Steel Master Trust Account in
             the year of plan termination, as reflected on the Master Trust Form 5500 for 2002;
             and 
        
           o Over $2 million in administrative expenses reflected on the Master Trust Form
             5500 for 2002 as paid from trust assets during the five month period between plan
             termination and PBGC’s trusteeship of the plan. 
        
   •   Procedures to identify missing assets. We found no evidence that PBGC or its contract
       auditors performed audit procedures to ensure that all plan assets had been located or to
       identify and value additional assets, if any, beyond those listed in the custodian bank
       statements. The audit services contract required the IMRG auditors to contact likely
       sources such as insurance companies, investment managers, accountants, and the plan
       administrator with the purpose of identifying assets not listed on custodian bank
       statements. However, the contractor’s audit work papers showed no evidence that this
       had occurred. As a result of the auditors’ failure to contact sources independent of the
       custodian, PBGC and the National Steel beneficiaries do not have reasonable assurance
       that all plan assets were identified and included in the total value of plan assets reported
       in the audit report.

Review of Forms 5500 to identify material changes in asset value. Although PBGC
procedures required that auditors review the Forms 5500 for at least one year prior to DOPT and
ending one year after DOPT to ensure all assets are identified and to assess any material changes
in asset values, we found no evidence that PBGC or its contract auditors reviewed any of the

                                                                                                   13
OIG Eval‐2011‐10/PA‐09‐66‐1
Forms 5500 for the seven terminated plans or the Forms 5500 for the National Steel master trust.
As a result, errors and omissions that might have been identified through this procedure may
have gone unaddressed.

   •   Confirmation of payables. Audit work papers contained no evidence to indicate that
       payables were confirmed by PBGC or its contract auditors. Determining the fair market
       value of a plan’s liabilities is an important step in conducting a plan asset audit and an
       accurate valuation of the plan’s liabilities is needed to calculate the plan’s net assets.
       According to PBGC’s procedures manual, the auditor should obtain a listing of the plan’s
       accounts payable as of DOPT. The auditor should then confirm payables with creditors
       by direct confirmation. Based on our review of the work papers and interviews with
       responsible staff, this required procedure was not performed.

   •   Steps to identify potential fiduciary breaches, conflicts of interest, and fraud. Audit work
       papers contained no evidence that PBGC or its contract auditors had performed any of the
       required procedures intended to identify potential conflicts of interest, fiduciary breaches
       or fraud. For example, PBGC policy required the auditors to determine whether people
       other than the named fiduciaries had handled plan investment and whether transactions
       appeared to be “arms length.” Nevertheless, we found no evidence of completion of the
       required steps to assess risk and identify potential fraud. As a result, PBGC and the
       National Steel beneficiaries have a reduced level of assurance with regard to the risk of
       fraud relating to plan assets and liabilities.

   •   Review of internal controls. Relevant PBGC policy required the auditors to establish the
       existence and degree of internal controls regarding the plan assets. We found no
       documentation to indicate that either PBGC or its contract auditors had performed this
       required and critical audit step.
PBGC and its contract auditors allocated assets among the individual plans without
validating the allocation percentages. The auditors calculated the fair market value of plan
assets for each of the seven individual plans by distributing the “audited” values of assets and
liabilities using a set of allocation percentages. These percentages were vital to the accuracy of
the resulting numbers, as very small variations in certain percentages could have changed the
funding status of the smaller plans. Nevertheless, neither PBGC nor its contract auditors did any
work to ensure that the allocation percentages were reliable or to validate the source and use of
the percentages. IMRG did not provide work papers to explain the method or rationale for the
allocation percentages and dollar values attributed to each plan. OIG interviews with officials
from both BAPD and IMRG revealed that neither was able to explain how these percentages of
ownership in the master trust assets were derived.

Because the allocation percentages are so important to the calculated fair market value of plan
assets at the date of plan termination, any audit done in accordance with Government Auditing
Standards, which incorporate by reference the standards of the American Institute of Certified
Public Accountants (AICPA), would necessarily include tests of the validity of the allocation
percentages. Because the audit report asserts that the audit was done in accordance with
Government Auditing Standards, users of the report would be justified in concluding that the
allocation percentages had been tested or that the auditors had been satisfied with the results of
                                                                                                     14
OIG Eval‐2011‐10/PA‐09‐66‐1
testing of the internal controls under which the allocation percentages had been developed.
However, for the National Steel plan asset audit, we found no evidence of any audit work to
address this key element in the computation of the fair market value of plan assets.

PBGC’s response to this report discusses an audit program 9 that has been approved by PBGC
management for use by a CPA firm to re-perform PBGC’s valuation of the plans’ assets. Our
review of the audit program showed that the CPA firm has been requested to conduct several
important analyses of the allocation process. However, we also noted that the audit program did
not explain how the CPA firm will address the issue of materiality. If the CPA firm bases its
judgments about materiality on the overall value of plan assets, the smallest of the plans could be
deemed “immaterial.” Given that the National Steel plan assets have been estimated at about
$1.4 billion, some auditors might consider a $14 million error to be immaterial. However, since
the smallest of the National Steel plans has calculated liabilities of only about $29 million, a $14
million error could be very significant when viewed in comparison to the smallest of the plans
and should be deemed material. Thus, we concluded that it is important that the CPA firm
consider materiality in light of the smallest National Steel pension plans and that the methods by
which materiality is to be calculated be documented in the CPA firm’s audit program.

Our review of PBGC policies in effect at the time of the National Steel plan asset audit showed
that PBGC guidance did not specifically address the issue of validating allocation percentages.
Our review of current PBGC policy shows that it continues to be silent on the topic of validating
allocation percentages. The National Steel plan asset audit is not unique in the auditors’ failure
to validate allocation percentages. Given the detailed guidance that PBGC has developed to
address other aspects of the plan asset audit process, it would be prudent for PBGC to develop
and implement specific audit procedures to ensure the integrity and fairness of allocation
percentages used in situations where plan assets have been commingled.

    II.     PBGC’s Plan Asset Audit Did Not Comply with Government
            Auditing Standards

PBGC and its contract auditors asserted in the National Steel plan asset audit report that the audit
was conducted in accordance with GAGAS. PBGC’s contract with IMRG calls for audit work to
be “consistent with the government auditing standards....” However, both the performance of the
plan asset audit and the quality assurance program under which it was performed suffered from
multiple and serious deviations from government auditing standards. GAGAS are the
professional standards for government auditing that provide a framework for performing high-
quality audit work with competence, integrity, objectivity, and independence. The general
standards apply to all audit organizations, both government and nongovernment, conducting
audits of government organizations, programs, activities.

Based on the pervasive nature of the errors and omissions in the audit report itself and on our
interviews with responsible contractor and PBGC personnel, we concluded that little emphasis

9
  Audit programs comprise a listing of the procedures to be performed as part of an audit as well as other
information necessary to guide the engagement. Procedures for calculating materiality and documenting the
auditors’ judgment about materiality are frequently included in audit programs.

                                                                                                             15
OIG Eval‐2011‐10/PA‐09‐66‐1
had been placed on ensuring the truth of the audit report’s assertion that the audit was conducted
in accordance with GAGAS. For example, during our interview with the PBGC auditor
responsible for monitoring contactor performance on the National Steel plan asset audit, the
auditor noted that “the use of the standards sort of fell through.” In response to a question about
whether PBGC ensured that contract auditors performing the National Steel plan asset audit
followed government auditing standards (colloquially known as the “Yellow Book” because of
its yellow cover), the PBGC auditor with responsibility for oversight stated:

       It was interesting that a report template we used stated the work was done in
       accordance with Yellow Book standards, because during the time of the
       National Steel plan asset audit we were not performing the work in accordance
       with Yellow Book standards.

By including a statement of compliance with generally accepted government auditing standards
in its National Steel plan asset audit, PBGC and its contract auditors are affirmatively asserting
that the report and all supporting work papers were prepared in accordance with these standards
and that the auditors followed all applicable standards during the audit. The compliance
statement should be qualified in situations in which the auditors did not follow an applicable
standard. However, the pervasive nature of the errors and omissions in the audit report, as well
as the comments and observations made by the PBGC employees and leaders with responsibility
for the audit make it clear that neither PBGC nor its contract auditors were performing their
responsibilities in accordance with applicable professional standards. Thus, PBGC should
formally withdraw the National Steel plan asset audit report and provide appropriate notice of the
withdrawal on PBGC’s public website.

In addition to the serious errors and omissions already discussed, we identified additional
deviations from standards.

Incomplete Audit Work Papers. Neither PBGC nor its contract auditor maintained a complete
record of the auditors’ work, whether in the form of work papers or in any other written form.
GAGAS fieldwork standards for performance audits require”
       Sufficient, competent, and relevant evidence is to be obtained to afford a
       reasonable basis for the auditors’ findings and conclusions. A record of the
       auditors’ work should be retained in the form of work papers. Working papers
       should contain sufficient information to enable an experienced auditor having
       no previous connection with the audit to ascertain from them the evidence that
       supports the auditors’ significant conclusions and judgments.

A significant part of any audit entails obtaining and evaluating evidence that ultimately supports
the auditors’ judgments and conclusions pertaining to the audit objectives. Documents gathered
and conclusions reached during the audit are maintained as work papers. Working papers serve
three purposes - they provide the principal support for the auditors’ report, aid the auditors in
conducting and supervising the audit, and allow others to review the audit’s quality. Audit work
papers for the National Steel plan asset audit demonstrated that the audit team did not perform a
robust, complete, and thorough audit. Our review showed an insufficient number of work papers
to support the auditors’ findings; further, the work papers did not always have a logical, sensible

                                                                                                 16
OIG Eval‐2011‐10/PA‐09‐66‐1
relationship to the findings. The work papers contained only a small proportion of the evidence
required to support a plan asset audit for a large plan termination, if the audit was performed in
accordance with applicable standards.

The work papers that PBGC and its contract audit maintained often failed to support the audit
report as written. For example, the following table shows three instances where the asset totals
presented in the report did not agree with the totals reflected in the underlying work papers and
neither the report nor the supporting work paper explained the reasons for the differences in this
number. The differences are material; each totals more than twice the value of assets allocated to
the smallest of the seven plans.


                                                                                                      
        Work Paper (WP) Number &           Amount Reflected In      Amount Reflected In               
                    Title                   IMRG PAA Report          IMRG Work Papers           Difference 
        WP VIII, Net Assets               $1,436,523,271.58         $1,400,302,878.58          $36,220,393
        WP VIII, Total Assets             $1,438,375,127.95         $1, 403,332,565.18         $35,042,562
        WP IX, Total Assets               $1,438,375,127.95         $1,403,332,565.18          $35,042,562
       Table 2: Examples of asset total discrepancies between IMRG’s report and supporting work papers 



Additionally, for five of the seven pension plans, the master trust allocated amounts depicted in
the plan asset audit report did not agree with the values contained in the supporting work paper
(see table below). Neither the report nor the supporting work paper explained the reasons for the
differences in these allocated amounts.



                                                        PBGC           IMRG Audit              IMRG Work
                      Plan Name                        Case No.           Report                 Paper IX
                                                                      (as of 12-6-02)         (as of 12-6-02)
     Granite City Pension Plan for Chemical            19761000       $67,603,080.52          $66,237,297.08
     Workers
     Weirton Retirement Program                        19761400      $321,363,157.42         $321,363,157.43

     National Steel Corporation Retirement             19836900      $310,340,803.13         $306,347,498.98
     Program
     National Steel Corporation Pension Plan           19837000      $494,155,640.95         $470,818,075.62
     Hourly Employees
     Granite City United Steelworkers of America       19837100      $178,567,462.06         $172,609,905.52
     Pension Plan
     Pension Plan for Salaried Employees of            19761300       $15,825,011.52          $15,436,658.22
     National Steel Pellet
     National Steel Pellet Company Pension Plan        19837400       $50,519,972.35          $50,519,972.35
     for Wage Employees
                                                       TOTALS       $1,438,375,127.95       $1,403,332,565.20
       Table 3: Examples of allocation discrepancies between IMRG’s report and supporting work papers 




                                                                                                                17
OIG Eval‐2011‐10/PA‐09‐66‐1
The National Steel plan asset audit report showed Due and Unpaid Employer Contributions
(DUEC) of $35,042,562; while the supporting work paper showed a DUEC value of $36,220,393
-- a difference of $1.1 million. As with the other discrepancies, neither the report nor the
supporting work paper explained the reasons for the differing amounts reported for this
receivable.

The National Steel plan asset audit work papers did not contain the objectives, scope, and
methodology of audit work performed, including any sampling criteria used. The lack of these
critical elements, which are required by Government Auditing Standards, makes it exceptionally
difficult to understand or assess the work performed by the auditors. Without complete work
papers, auditors who follow are unable to rely on the conclusions reached by the National Steel
plan asset audit team.

Based on the scant number of work papers filed in PBGC’s official system of record, Image
Viewer, we were unable to determine whether:

   • The auditors simply failed to accomplish the vast majority of the audit steps required to
       complete the plan asset audit;

   • Whether the auditors chose to ignore Government Auditing Standards concerning
       documenting the work performed; or

   • Whether both PBGC and the contract auditors did not take proper care to safeguard and
       maintain the vast majority of the work papers.
                        
During an interview with IMRG personnel, IMRG officials explained they never kept copies of
the National Steel plan asset audit work papers. The contractor advised that PBGC had stated
that the work papers were the property of PBGC and should be left with PBGC at the completion
of the audit. During an interview with OIG, the president of IMRG stated she was surprised that
PBGC could not provide IMRG’s work papers for these audits. She stated that her staff
generated lots of work papers related to these projects and she could not understand why PBGC
was unable to locate these documents. PBGC officials advised that we had been provided all
existing work papers related to the National Steel plan asset audit.

Effective use of work papers supports the auditors’ conclusions, allows for quality control
reviews and is a fundamental characteristic of a professional auditor. Neither PBGC nor its
contract auditor provided adequate work paper support for the issued plan asset audit report.

No evidence of compliance with other mandatory standards. Due to the absence of required
work paper documentation, neither the contractor nor PBGC provided evidence to support
compliance with Government Auditing Standards requirements during the National Steel plan
asset audit, including:

   •   No evidence that the audit engagement was adequately planned. Many of the errors and
       omissions noted previously would not have occurred if the audit had been properly
       planned, in accordance with Government Auditing Standards.

                                                                                                 18
OIG Eval‐2011‐10/PA‐09‐66‐1
     •      No documentation of significant conclusions and judgments. Because neither PBGC nor
            its contract auditors ensured documentation of key conclusions, others -- including those
            who review the work after the fact -- do not have the necessary information to allow
            reliance on the report’s conclusions.

     •      Limited evidence of supervisory review of work performed. Although the audit work
            papers contain some evidence of IMRG’s supervisory sign-off on certain analyses, the
            pervasive nature of the obvious errors and omissions make it highly unlikely that audit
            work was subject to thoughtful supervisory review.

     •      No evidence of work to obtain assurance of compliance with laws and regulations.
            Government Auditing Standards require that an audit be designed to provide reasonable
            assurance of compliance with relevant laws and regulations.

     •      No evidence of compliance with standards for continuing professional education. Our
            review disclosed that neither IMRG nor PBGC maintained evidence documenting that
            contract auditors, who performed the National Steel plan asset audit, earned the required
            continuing professional education (CPE) hours to support their professional proficiency.

     •      No external peer review. Neither the contract audit organization nor PBGC had complied
            with the requirement for an independent external peer review. Government Auditing
            Standards require that each audit organization conducting audits in accordance with these
            standards have an appropriate internal quality control system in place and undergo an
            external quality control review (i.e., a peer review).


     III.     PBGC’s Oversight of the Contractor was Inadequate

PBGC’s oversight of the contract auditors was ineffective in identifying obvious and material
errors and omissions in the work IMRG performed on the National Steel plan asset audit. PBGC
was required to monitor IMRG’s performance in accordance with the technical performance
aspects of the audit services contract. PBGC personnel responsible for monitoring IMRG’s
performance included the Contracting Officer’s Technical Representative (COTR) and personnel
within the assigned Trusteeship Processing Division (TPD). 10

As stated in PBGC Directive FM 15-1, the COTR’s major responsibilities were to monitor the
contractor’s performance to ensure compliance with the technical performance aspects of the
contract; ensure that deliverables were acceptable; maintain documentation and records for
actions taken; and ensure invoices were proper prior to payment. TPD personnel are the subject
matter experts in conducting plan asset audits and are assigned the overall responsibility for the
completion of these audits. Therefore, they should play a significant role in assisting the COTR

10
  TPDs are divisions within BAPD with primary responsibility for activities related to terminated trusteed pension
plans. BAPD currently has eight TPDs. TPD 1 was responsible for the completion of the National Steel plan asset
audit.


                                                                                                                19
OIG Eval‐2011‐10/PA‐09‐66‐1
in effectively monitoring the contractor’s performance. The TPD auditor is typically involved
with the contract auditors on a day-to-day basis and should be reviewing the contractor’s work
papers and final report for such things as accuracy of analyses, adequacy and relevancy of work
performed, and sufficiency of support for conclusions.

During our evaluation, we identified pervasive weaknesses in PBGC’s oversight of the contract
auditors’ work:

     • No Evidence of COTR Monitoring. PBGC provided no COTR records demonstrating any
        monitoring or oversight of IMRG’s work during the performance period of the National
        Steel plan asset audit. That is, PBGC provided no progress reports, no documentation to
        support any feedback from PBGC personnel who worked directly with the contractor,
        and no documents regarding the inspection and acceptance of the contractor’s
        deliverables. While PBGC record retention policies call for COTR records for this
        contract to be forwarded to the Contracting Officer and maintained until March 2015,
        PBGC did not provide any COTR records for three of the five assigned COTRs 11 for the
        IMRG contract. Although a few files were located for the other two COTRs, we found
        no evidence that any of the five COTRs had monitored IMRG’s performance.
        Nevertheless, when this contract was closed out in 2008, the final COTR rated the
        contractor’s performance as “Outstanding,” despite the absence of any documented
        support for this rating.

     • No Evidence of TPD Monitoring. PBGC officials advised that they were unable to locate
        any evidence of TPD monitoring. Other than the uncorroborated assertions of the TPD
        auditor assigned to the audit, we found no evidence of such monitoring. There were no
        written products to show whether IMRG’s work complied with contract performance
        standards related to technical quality, timeliness, demonstration of specific expertise, and
        overall performance.

        Furthermore, in reviewing the audit work papers, we noted that TPD personnel did not
        initial and date any of the work papers, as evidence of PBGC’s review of these
        documents, nor did the work papers contain any review comments or notes authored by
        PBGC personnel. The TPD auditor who concurred in the report shared the following as it
        relates to the review of IMRG’s work papers, “My review of plan asset audits in
        particular consisted of reading the report; reviewing work papers to determine what was
        done; and performing recalculations. … Although I did not sign off on each work paper
        reviewed, my concurring on the report, in my view, supports that I looked at everything.”

Based on the numerous obvious inaccuracies and the lack of support for IMRG’s audit
conclusions, we concluded that the undocumented review performed by the TPD auditor was, at
best, inadequate.

Although there was no corroborating evidence that PBGC personnel reviewed any of IMRG’s
work on the National Steel plan asset audit, both the TPD manager and auditor assigned to
11
  During the time period of the IMRG contract under which the National Steel plan asset was performed, five
different COTRs had been assigned responsibility for contract monitoring.

                                                                                                              20
OIG Eval‐2011‐10/PA‐09‐66‐1
manage and provide oversight for the audit signed IMRG’s plan asset audit report, concurring
with the results and supporting work papers and attachments. Neither the PBGC manager nor
the PBGC auditor commented on the inadequacies of the contract auditors’ work or on the
extensive noncompliance with Government Auditing Standards.

Based on our interview with BAPD personnel, PBGC’s plan asset audits had included a
statement of compliance with government auditing standards for years, without regard to
whether auditors actually complied with the standards and without an effort to evaluate that
compliance. The BAPD Director advised that audit work was performed as it always had been,
without regard to the standard cited in the audit report. We concluded that PBGC leadership has
historically placed little emphasis on the need to conduct audit work in accordance with
professional auditing standards, with a resulting negative effect on the work of PBGC’s contract
auditors and PBGC audit staff.

  IV.     PBGC Personnel Ultimately Responsible for Shoddy Contract Work

Although a contractor performed much of the National Steel plan asset audit work, PBGC was
ultimately responsible for ensuring the contractor provided a quality product in accordance with
applicable auditing standards. In our opinion, both PBGC and its contract auditor failed in their
responsibility for ensuring that the National Steel plan asset audit was conducted in accordance
with applicable professional standards.

Factors that support the contract auditor’s responsibility for ensuring the quality of work include:

   • Seven IMRG employees, including the IMRG audit supervisor and the IMRG Project
        Manager signed the National Steel plan asset audit report;
   •    IMRG was paid under a contract that called for reports to be prepared “on the basis of
        customary and reasonable accounting and auditing standards” and that required work
        products to be “consistent with the generally accepted government auditing standards;”
   •    IMRG claimed the audits as being their own. For example, in a progress report they
        referred to their own accomplishment in “the completion (emphasis added) of … 430
        plan asset audits.”
Factors that support PBGC’s responsibility for ensuring the quality of work include:

   •    The audit report was issued on PBGC letterhead; 
   •    IMRG auditors were not authorized to contact the plan sponsor, insurance companies, or
        asset managers; 
   •    PBGC retained the work papers and prohibited IMRG from retaining copies; 
   •    PBGC senior leadership considered IMRG employees to be support members of a team
        working to complete audits on behalf of PBGC;  
   •    IMRG asserted that IMRG personnel were contracted professional staff being utilized by
        PBGC to perform the procedures assigned to them; and  
   •    PBGC personnel assigned the work to be done, provided the documents to be examined,
        advised the specific procedures to be used, and made changes to the report as they judged
        appropriate. 

                                                                                                 21
OIG Eval‐2011‐10/PA‐09‐66‐1
PBGC is ultimately responsible for ensuring the quality and integrity of the National Steel plan
asset audit; however, IMRG is also responsible for ensuring that work for which the contractor is
paid meets the standards of the contract – in this case, audit work performed consistent with
government auditing standards and PBGC’s internal guidance. Based on the extensive errors
and omissions in the National Steel plan asset audit and supporting work papers, both PBGC and
IMRG failed to exercise due professional care as required by government auditing standards.

  V.      PBGC’s Corrective Actions Initiated During OIG’s Review

PBGC placed tremendous reliance on its contractor and has experienced serious and costly
problems with the quality and utility of the contract deliverable for which it paid. Many of these
issues could have been avoided through effective contract management, including careful
contract monitoring, acceptance of deliverables and evaluation of contractor performance. To its
credit, after we advised PBGC leadership of the serious issues included in this report, PBGC
committed to taking actions to re-evaluate National Steel’s plan assets and to improve the
effectiveness of its plan asset valuation process.

In February 2011, PBGC contracted with a certified public accounting firm to (1) perform
procedures to provide management with evidence that all assets have been identified;
(2) determine if there were any insurance contracts; (3) validate the allocation of assets in the
Master Trust to ensure that each plan was allocated the appropriate amount as of the date of plan
termination; (4) determine if there were any improper transfers of assets; and (5) determine the
fair market value of plan assets as of the date of plan termination.

The CPA firm will face a number of difficulties in completing the work set forth by PBGC.
First, the passage of time will affect the ability of the CPA firm to evaluate transfers of assets for
propriety. Information about the insurance contract and the annuity contracts may be impossible
to obtain. As part of our review, we contacted the company providing the annuities and were
told that many of the records supporting the payment of annuities were no longer available.
Finally, some or all of the investment managers responsible for assets of the National Steel
pension plan may have discarded or archived relevant records. It is likely that some of the
omitted procedures that should have been performed originally cannot be performed effectively
at this time. Nevertheless, PBGC is to be acknowledged for its attempt to provide assurance
about the fair market value of plan assets for the National Steel pension plans.

PBGC has also taken other actions in response to our preliminary findings, including:

   •   Moving from a labor-hour to a fixed price contract vehicle for plan asset audit, a change
       that PBGC believes will place more responsibility on the contractor for submission of a
       quality product;

   •   Creating a position of Auditor Technical Reviewer with applicable training on the
       technical reviewer’s role in support of the COTR;




                                                                                                    22
OIG Eval‐2011‐10/PA‐09‐66‐1
   •   Initiated a process through which each TPD develops and implements an action plan to
       address the quality of work; and

   •   Reviewing plan asset audits completed over the last 2 years, with the objective of using
       identified deficiencies to train reviewers and staff and to update procedures.

In addition to the above actions initiated by the corporation, in August 2010, PBGC’s Chief
Operating Officer issued a memorandum to senior BAPD personnel clearly enumerating his
expectations that senior BAPD personnel would:

   • Follow PBGC and BAPD policy, procedures, and processes;

   • Ensure the federal employees and contractors who do work that BAPD is responsible for
       all follow PBGC policy, procedures, and processes;

   • Accomplish work with a reasonable level of quality;

   • Not sign a document that does not meet the above expectations and do what is necessary
       to correct the work.

   • Clearly document and obtain approval for deviations to policy, procedures, and
       processes; and

   • Maintain documentation of poor work performed by contractors.

If senior BAPD personnel meet the expectations set forth in the letter, the quality and accuracy
of work to value plan asset audits will almost certainly be greatly improved.

The PBGC Director has made changes in the organizational structure of BAPD’s leadership.
The position of Chief Operating Officer has been merged into the role of Deputy Director,
creating the position of Deputy Director for Operations (DDO). According to the PBGC
Director, this change will give the Deputy Director direct management oversight over BAPD.
As part of that responsibility, the DDO is planning a strategic review of the structure, processes
and procedures of PBGC’s current benefits processing and payments. The work is to be
performed by an external contractor.

Recommended Actions

We recommend PBGC initiate the following corrective actions:

   1. Formally withdraw the National Steel plan asset audit report and post notice of
      withdrawal on PBGC’s external website. The notice is to remain on the website until the
      new National Steel plan asset report is completed and accepted by PBGC with a
      statement in the new report regarding the withdrawal of the prior asset audit report.


                                                                                                   23
OIG Eval‐2011‐10/PA‐09‐66‐1
      PBGC Response: Management will withdraw the current National Steel Plan Asset
      Audit report and post a notice on the PBGC website to let participants know that the asset
      audit is being redone. The notice will also state that the existing benefit determinations
      remain in effect and should be relied on unless or until they are changed.

      OIG Position: We concur with the management decision.
        
   2. Ensure that the CPA’s ongoing re-evaluation addresses each of the omitted procedures,
      including but not limited to accrual of interest on fixed income and cash and cash
      equivalents; independent validation of the custodian’s valuation for hard-to-value and
      nontraditional assets; verification of transfers and unusual transactions; confirmation of
      payables; and review of internal controls. 

      PBGC Response: Management has directed the CPA firm to include OIG’s
      recommendation into their testing. As OIG’s report notes, the CPA firm will face
      difficulties, in part, due to the passage of time. To the extent that testing can be
      performed, the independent CPA firm assigned to National Steel will test the areas cited
      in the recommendation.
       
      OIG Position: We concur with the management decision.
       
   3. Ensure that the CPA’s ongoing re-evaluation includes steps to contact likely sources,
      such as insurance companies, investment managers, accountants, and plan administrators
      for the purpose of identifying assets not listed on custodian bank statements. To the
      degree that such contacts are no longer possible (e.g., the asset manager is no longer in
      business), develop and perform alternative procedures to provide assurance that all assets
      have been properly identified, collected, and allocated to the National Steel plans.

      PBGC Response: Management has directed the CPA firm to include the OIG’s
      recommendation in their testing. Management has reviewed and approved the CPA
      firm’s audit program that includes the required steps or alternative testing to ensure that
      all assets for the Plans have been properly identified, collected, and allocated to the
      National Steel plans.
      OIG Position: We noted that the audit program approved by PBGC management did
      not address how the CPA firm would consider materiality in its testing of asset allocation.
      As noted in this report, we believe that it is important that the new CPA firm consider
      materiality in light of the smallest National Steel pension plans and that the methods by
      which materiality is to be calculated be documented in the CPA firm’s audit program. As
      long as the CPA firm considers the smallest of the National Steel plans in its materiality
      calculations, we concur with the management decision.


   4. In the event that the CPA is unable to perform the procedures that were required at the
      time the plan asset audit was issued, ensure that the CPA’s ongoing re-evaluation
      includes alternative steps to identify potential fiduciary breaches, conflicts of interest, and
      fraud.

                                                                                                   24
OIG Eval‐2011‐10/PA‐09‐66‐1
      PBGC Response: Management has directed the CPA firm to include the OIG’s
      recommendation in their testing. Management is reviewing the CPA firm’s audit
      program’s alternative procedures to identify potential fiduciary breaches, conflicts of
      interest, and fraud.

      OIG Position: We concur with the management decision.

   5. Ensure that the CPA’s ongoing re-evaluation includes validation of the allocation
      percentages used to distribute commingled assets among the various plans. Additionally,
      ensure that assets are distributed consistently with the type of ownership. That is, for
      items such as insurance contracts, annuity contracts, and real estate that are not owned in
      common with the other National Steel plans, allocate the value to the plan that owns the
      asset.

      PBGC Response: Management has directed the CPA firm to include the OIG’s
      recommendation to ensure that specific issues identified are taken into account during
      their testing. Testing the allocation of assets for the National Steel Plans is a central task
      of the reevaluation PBGC is asking the CPA firm to perform. Management has reviewed
      and approved the specific audit programs of the CPA firm, including alternative
      procedures for testing of the allocation of assets among the National Steel Plans.

      OIG Position: We concur with the management decision, contingent upon the CPA
      firm’s use of an appropriate materiality calculation as noted in the OIG position for
      recommendation 3 above.

   6. Use the results of PBGC’s review of plan asset audits completed over the last two years
      to enhance training and modify guidance as warranted.

      PBGC Response: Management will incorporate the results of the two year look-back
      testing into the plan asset audit course that is scheduled to be developed during FY 2011.
      Management will also provide additional guidance to auditors through updated
      procedures or references in the Auditor’s Technical Manual where appropriate.

      OIG Position: We concur with the management decision.

   7. Ensure that technical monitors are aware of their responsibility to review the work
      performed by contract auditors, including an assessment of whether the conclusions in
      the audit report are supported by the results of audit testing, a comparison of the work
      performed by the contract auditors to the work mandated in PBGC protocols, and review
      and resolution of material variances disclosed during the course of an audit.

      PBGC Response: Management held a two-day workshop with the Auditor Technical
      Reviewers (technical monitors) on January 12 and January 31 to discuss their
      responsibilities in the review and evaluation of contractor audits. The Contracting
      Officer’s Technical Representative will meet with the Auditor Technical Reviewer and a
      representative from the Trusteeship Processing Division Management Team, where

                                                                                                  25
OIG Eval‐2011‐10/PA‐09‐66‐1
      appropriate, to re-emphasize the responsibilities each time a new asset evaluation is
      undertaken.

      OIG Position: We concur with the management decision.

   8. Within BAPD, develop a department-level “robust” quality assurance program aimed at
      ensuring plan asset valuations are performed in accordance with applicable procedures
      and standards.
      PBGC Response: PBGC is in the process of developing a department-level, robust
      quality assurance program aimed at ensuring plan asset valuations are performed in
      accordance with applicable procedures and standards. The program will consist of
      several parts including: (a) appropriate work reviews; (b) improved and targeted training;
      (c) improved procedures; (d) improved lessons learned and related communications and
      (e) a formal assessment of process adherence through a Product and Process Quality
      Assurance Program. A contract award for Product and Process Quality Assurance has
      already been made.

      Additionally, PBGC is undertaking a strategic review of BAPD, including its processes,
      personnel, and organization. This review is being led by the Deputy Director for
      Operations, assisted by PBGC staff as well as outside experts. The goals of this review
      are to assess and, as appropriate, refine BAPD’s operational strategy; align the structure,
      systems and processes; and improve customer service (quality of products, services, and
      timeliness) and accountability. The procurement for this strategic review is underway.

      OIG Position: We concur with the management decision.

   9. Enhance and formalize training efforts for auditors to better guide them on appropriate
      planning, risk assessment, and scope of procedures to be performed as part of the audit
      program. Further, enhanced training on illiquid investments, fiduciary breaches, and
      other special situations should be provided.

      PBGC Response: Management will re-look at the current auditor curriculum for BAPD
      auditors to address the items outlined in OIG’s recommendation. Where appropriate,
      management will seek outside consultants in developing training for these items.

      OIG Position: We concur with the management decision.

   10. Develop and maintain a process to share “lessons learned” and best practices in a formal
       and consistent manner to ensure that all appropriate personnel become aware of best
       practices and are able to use them in future audits.

      PBGC Response: Management has begun to use Auditor’s Quarterly meetings and
      monthly Auditor Technical Reviewer meetings to formalize the lessons learned and best
      practices. Specific meeting notes or topics will be included in the Auditor’s Technical
      Manual or Portal for future reference.

                                                                                                26
OIG Eval‐2011‐10/PA‐09‐66‐1
      OIG Position: We concur with the management decision.

   11. Expand the current written procedures to include procedures and a checklist of factual
       and legal items for identifying all available assets, including those not custodied with the
       primary custodian bank; for example: insurable assets; intellectual property; accounts
       held by asset custodians elsewhere (e.g., at a prime brokerage firm); and potential plan
       assets that may be less obvious than other plan assets.

      PBGC Response: Management will update its procedures manual and applicable audit
      programs to include the items noted in OIG’s recommendation.

      OIG Position: We concur with the management decision.

   12. Develop and implement specific audit procedures to ensure the integrity and fairness of
       allocation percentages used in situations where plan assets have been commingled.  
      PBGC Response: Management is working to update its procedures manual and train
      staff on how to audit plans where an allocation of assets is needed.

      OIG Position: We concur with the management decision.




                                                                                                 27
OIG Eval‐2011‐10/PA‐09‐66‐1
Appendix A – Scope and Methodology

The Office of Inspector General (OIG) received a request from U. S. Senators Amy Klobuchar
and Al Franken, and U.S. Congressman James Oberstar to review and examine the work of the
PBGC regarding Minnesota steelworker pension plans. This report is the first in a series of
reports we plan to issue to address the concerns of the Minnesota congressional delegation and
their constituents. One of the areas the delegation requested the OIG review concerned whether
PBGC consistently applied ERISA, as well as its own regulations and policies when terminating
and calculating the benefits related to pension plans of Minnesota steelworkers. In an effort to
address this area of concern, the OIG reviewed selected aspects of PBGC’s benefit termination
process. This report focuses on PBGC’s process to value the assets of the National Steel
Corporation family of seven terminated pension plans.

Fieldwork for this evaluation was performed from August 2009 through January 2011. The
evaluation was conducted in accordance with the Quality Standards for Inspections established
by the Council of the Inspectors General on Integrity and Efficiency, as well as applicable OIG
policies and procedures. These standards require that we plan and perform the evaluation to
obtain sufficient, competent, and relevant evidence to provide a reasonable basis for our
conclusions based on our evaluation objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our evaluation objectives.

To achieve our evaluation objectives, we performed a detailed review of the Plan Asset Audit of
National Steel Pension Plans dated July 14, 2003 and accepted by PBGC in April 2004. PBGC’s
audit - the subject of our review - was conducted by contract auditors, under PBGC oversight,
and was intended to determine the fair market value of plan assets at the date of plan termination
for seven terminated National Steel pension plans.

In addition to performing a detailed review of the issued plan asset audit report and supporting
workpapers and attachments, the OIG evaluation team:

   1.) Identified and analyzed the laws, regulations, professional standards (including
       Government Auditing Standards and standards promulgated by the AICPA), and PBGC
       policy and guidance applicable to the plan asset audit process and to oversight of
       contractors.
   2.) Obtained and analyzed PBGC’s contract with IMRG for audit services to be provided
       between 2002 and 2008, as well as key documentation, progress reports, and other
       correspondence and documentation pertaining to the conduct of the National Steel Plan
       asset audit.
   3.) Interviewed the BAPD Director, BAPD Deputy Director, various BAPD managers, the
       COTR as of the date of contract closeout, the TPD auditor who concurred with the issued
       report, various PBGC personnel, IMRG leadership and staff, FOD personnel with
       responsibility for accounting for and valuing assets after trusteeship, and responsible
       personnel at the insurance companies holding insurance policies and annuity contracts for
       National Steel pension plans.
   4.) Performed evaluation work at IMRG offices to obtain the contractor’s perspective on the
       conduct of the National Steel plan asset audit as well as other audit work performed

                                                                                                   28
OIG Eval‐2011‐10/PA‐09‐66‐1
         under the auditing services contract, reviewed contractor personnel records for the
         auditors who worked on the National Steel plan asset audit, and evaluated the
         contractor’s processes for ensuring compliance with government auditing standards.
   5.)   Reviewed and analyzed Forms 5500 for the Master Trust and for each terminated and
         trusteed National Steel pension plan for plan years 2002 and 2003. Forms were obtained
         from PBGC and from the publically available website FreeERISA.com.
   6.)   Reviewed and evaluated Mellon Bank custodian statements, to the extent available, to
         identify assets or income that may have been omitted from the plan asset audit and to
         identify unusual transactions, if any.
   7.)   Conducted detailed testing of the contract auditors’ workpapers supporting the plan asset
         audit, with emphasis on tests of completeness and valuation. We recalculated
         spreadsheets, tested equity and fixed income valuations against publicly available sources
         such as Yahoo! Finance, and compared the inventory of plan assets to other available
         information including Forms 5500.
   8.)   Reviewed previously issued OIG Audit Reports Number 2007-8/CA-0033-1 and 2008-
         4/CA-0033-2, “Report for Costs Incurred by IMRG under Contract PBGC01-CT-03-
         0652 for Fiscal Years ended September 30, 2003, 2004, 2005, and 2006” and “Report on
         PBGC’s Contract Administration of the IMRG Contract CT-03-0652,” respectively.
         These audits had been performed to evaluate IMRG’s compliance with selected contract
         terms and to assess PBGC’s oversight of IMRG. Our current review placed special
         emphasis on the open audit recommendations where PBGC has yet to implement
         corrective action.
   9.)   Reviewed a report commissioned by PBGC and performed by the Hewitt Corporation to
         evaluate BAPD’s post-trusteeship activities, including the plan asset audit process.
         Additionally, we requested PBGC to provide the status of actions taken to address
         recommendations included in the Hewitt report. We adapted some of the Hewitt
         recommendations for use in this report.
Our evaluation was limited in several ways due to PBGC’s failure to maintain important
information about the National Steel plan asset audit and its oversight. First, our evaluation was
limited because PBGC used a task order process to assign work to its contract auditors, but did
not maintain the task orders. Thus, we were unable to definitively determine exactly what
amount PBGC paid to IMRG for the National Steel plan asset audit. Additionally, as noted in
our evaluation report, the TPD auditor, the COTR, and the Contracting Officer each failed to
maintain complete records of contract oversight, impeding our ability to determine exactly why
PBGC accepted and issued the flawed audit report.




                                                                                                29
OIG Eval‐2011‐10/PA‐09‐66‐1
Appendix B – Plan Assets, Liabilities, and Net Asset Value

Types of Plan Assets

Pension plans can include several types of assets as follows:

       ● Cash and cash equivalents are liquid assets. Cash equivalents include money market
         fund accounts, checking accounts, savings accounts, and certificates of deposit.
         Short-term investment funds (STIF’s) are considered cash equivalents since the unit
         value is $1.00.

       ● Investment accounts and securities. These include stocks, bonds, foreign stock and
         bonds on foreign exchanges, commodity trading, derivatives (futures), and pooled
         and mutual funds.

       ● Non-traditional assets. Theses investments are not traded on a national exchange such
         as the New York Stock Exchange (NYSE). Real estate, limited partnerships,
         common/collective funds, and joint ventures are examples of such assets.

       ● Insurance contracts. Some plans are funded either partially or fully through an
         insurance company contract.

       ● Plan receivables generally include participant loans, Due and Unpaid Employer
         Contributions (DUEC), and assets not settled (pending sales).

       ● Interest. Many plan assets accrue interest income, which is considered a plan asset.
         Examples include interest on a Money Market account or dividend payments on
         stock.

       In some cases the audit team must address assets that have been merged or included in
       master trusts where the assets of several plans are combined and under the common
       control of a single custodian.

Types of Plan Liabilities

       Plans also include the following basic types of liabilities:

       ● Benefits payable. These include retroactive retiree benefit payments due to
         participants that are past due as of DOPT, including payees who were underpaid and
         participants who were never placed into pay status (Pre-Termination Plan Liabilities).

       ● Expenses payable. These include allowable expenses under the plan that are incurred
         for services such as actuarial, administrative, or legal services but not paid as of the
         DOPT.



                                                                                                30
OIG Eval‐2011‐10/PA‐09‐66‐1
       ● Assets purchased but not settled. These are assets that have been purchased but not
         settled as of DOPT. These represent a liability since the funds for the purchase have
         not been remitted as of DOPT.
Net Asset Value

PBGC determines the net value of plan assets by subtracting the total fair market value of plan
liabilities as of DOPT from the total fair market value of plan assets as of DOPT.




                                                                                                  31
OIG Eval‐2011‐10/PA‐09‐66‐1
Appendix C – Agency’s Response




          PENSION BENEFIT GUARANTY
                CORPORATION’S
          RESPONSE TO AUDIT REPORT




                                     32
OIG Eval‐2011‐10/PA‐09‐66‐1
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
